TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                           Trends in Compliance Activities
                              Through Fiscal Year 2009



                                           June 10, 2010

                              Reference Number: 2010-30-066




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.


 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                    HIGHLIGHTS


TRENDS IN COMPLIANCE ACTIVITIES                        Some declines may be attributed, at least in
THROUGH FISCAL YEAR 2009                               part, to the declining economy. The Collection
                                                       function experienced declines in dollars
                                                       collected on delinquent accounts, an increase in
Highlights                                             taxpayers with delinquent accounts assigned to
                                                       the Queue, including amounts owed on these
Final Report issued on June 10, 2010                   accounts, as well as an increase in gross
                                                       accounts receivable. However, FY 2009
Highlights of Reference Number: 2010-30-066            showed continued increases in the use of
to the Internal Revenue Service Deputy                 collection enforcement tools and Taxpayer
Commissioner for Services and Enforcement.             Delinquency Investigations closed due to receipt
                                                       of delinquent tax returns.
IMPACT ON TAXPAYERS
                                                       The Examination function hired approximately
This report is a compilation of statistical            2,000 revenue agents and tax compliance
information reported by the Internal Revenue           officers during the last fiscal year, which was the
Service (IRS). TIGTA did not verify or validate        most hiring performed in the last 5 years. The
the authenticity or reliability of the data and,       IRS will not receive an immediate benefit from
therefore, did not identify any specific impact on     this hiring, and the Examination function
the taxpayer. However, continued effort to             compliance activities showed mixed results in
improve compliance is important to reducing the        FY 2009. Compared to a slight decrease in
tax gap and maintaining the integrity of the           FY 2008, the percentage of tax returns
voluntary tax compliance system.                       examined increased slightly during FY 2009,
                                                       returning to approximately FY 2007 levels. At
WHY TIGTA DID THE AUDIT                                the same time, the dollar yield per hour
TIGTA conducts this review each year, and it is        increased for individual tax return examinations
included as part of our Fiscal Year (FY) 2010          performed by tax compliance officers as well as
Annual Audit Plan and addresses the major              for individual, corporate, and other types of tax
management challenge of Tax Compliance                 return examinations performed by revenue
Initiatives. The overall objective was to provide      agents.
various statistical information regarding              The IRS is continuing its efforts to improve
Collection and Examination function activities.        business processes and workload selection
                                                       methods because the processes/methods
WHAT TIGTA FOUND
                                                       appear to be having a positive impact on
The IRS faced many challenges during FY 2009,          compliance efforts. In addition, the hiring and
some of which were due to implementing                 training of new enforcement personnel continues
provisions of new tax legislation, replacing           to be a top priority because much of the benefit
experienced employees who are eligible for             of recent hiring has yet to be realized.
retirement, and the continuing impact of the
economic downturn. The economic condition              WHAT TIGTA RECOMMENDED
was especially apparent in the decreased               Although TIGTA made no recommendations in
collection of revenue. However, many other             this report, IRS officials were provided an
indicators showed mixed or positive results.           opportunity to review the draft report. IRS
The IRS is also facing an increasing number of         management did not provide any comments on
taxpayers with complex financial holdings,             the draft report.
increasing complexity of examinations, growing
impact of international tax law issues, and
expanding technology skill sets.
The FY 2009 Collection function activities
showed mixed results compared to FY 2008.
                                           DEPARTMENT OF THE TREASURY
                                                WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                            June 10, 2010


 MEMORANDUM FOR DEPUTY COMMISSIONER FOR SERVICES AND
                ENFORCEMENT

 FROM:                       Michael R. Phillips
                             Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – Trends in Compliance Activities Through
                             Fiscal Year 2009 (Audit # 201030012)

 This report presents the results of our review to provide various statistical information regarding
 Collection and Examination function activities. We conduct this review each year, and it is
 included as part of our Fiscal Year 2010 Annual Audit Plan and addresses the major
 management challenge of Tax Compliance Initiatives.
 Although we made no recommendations in this report, we did provide IRS officials an
 opportunity to review the draft report. IRS management did not provide us with any comments
 on the draft report.
 Copies of this report are also being sent to the IRS managers affected by the report results.
 Please contact me at (202) 622-6510 if you have questions or Margaret E. Begg, Assistant
 Inspector General for Audit (Compliance and Enforcement Operations), at (202) 622-8510.
                                    Trends in Compliance Activities Through Fiscal
                                                     Year 2009




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 2
          Collection Function Compliance Activities Showed Mixed Results............Page 4
          Examination Function Compliance Activities Also Showed
          Mixed Results ...............................................................................................Page 8

Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 14
          Appendix II – Major Contributors to This Report ........................................Page 16
          Appendix III – Report Distribution List .......................................................Page 17
          Appendix IV – Glossary of Terms................................................................Page 18
          Appendix V – Detailed Charts of Statistical Information.............................Page 22
          Appendix VI – Prior Treasury Inspector General for
          Tax Administration Compliance Trends Reports .........................................Page 50
        Trends in Compliance Activities Through Fiscal
                         Year 2009




                Abbreviations

ACS       Automated Collection System
CFf       Collection Field function
FY        Fiscal Year
IRS       Internal Revenue Service
SFR       Substitute for Return
TDA       Taxpayer Delinquent Account
TDI       Taxpayer Delinquency Investigation
TIGTA     Treasury Inspector General for Tax Administration
                          Trends in Compliance Activities Through Fiscal
                                           Year 2009




                                      Background

We conduct this review of nationwide compliance statistics for Collection and Examination
function activities each year, and it is included in our Fiscal Year (FY) 2010 Annual Audit Plan
and addresses the major management challenge of Tax Compliance Initiatives. Our data
analyses were performed in the Treasury Inspector General for Tax Administration (TIGTA)
Chicago, Illinois, and Philadelphia, Pennsylvania, offices during the period February through
March 2010. Nationwide data from Internal Revenue Service (IRS) management information
systems were used during our review. Due to time and resource constraints, we did not audit
IRS systems to validate the accuracy and reliability of their information. Also, we did not assess
internal controls because doing so was not applicable within the context of our objective. Our
analyses were limited to identifying changes and trends in IRS data.
Detailed information on our objective, scope, and methodology is presented in Appendix I.
Major contributors to the report are listed in Appendix II. A glossary of terms is included in
Appendix IV. Detailed charts and tables referred to in the body of this report are included in
Appendix V.
Most of the calculations throughout the report and Appendix V are affected by rounding. All
initial calculations were performed using the actual numbers rather than the rounded numbers
that appear in the report. Much of the data included in this report updates prior TIGTA reports
on compliance trends. Appendix VI presents a list of those reports.




                                                                                           Page 1
                               Trends in Compliance Activities Through Fiscal
                                                Year 2009




                                      Results of Review

The IRS faced many challenges during FY 2009, some of which were due to the enactment of
new tax legislation and the impact of the economic downturn. The IRS is also facing an
increasing number of taxpayers with complex financial holdings, increasing complexity of
examinations, growing impact of international tax law issues, and expanding technology skill
sets. In order to fully plan for future needs, the IRS is in the initial stages of developing, what is
hoped to be, a skills assessment process that could be used agency-wide.
On February 17, 2009, the American Recovery and Reinvestment Act of 2009 (Recovery Act) 1
was enacted. Federal agencies across the country were given the responsibility for distributing
billions of dollars of Recovery Act funding to qualified recipients in discretionary and mandatory
programs designed to revive the ailing economy and create a more sustainable future. The
Recovery Act contained 56 tax provisions: 20 individual taxpayer provisions and 36 business
taxpayer provisions.
In addition, the IRS is continuing work to curb the effect of another challenge, which is to
replace experienced employees that are eligible for retirement. The FY 2009 budget provided
additional funding for enforcement staff. The combined number of Collection and Examination
function enforcement personnel 2 increased by more than 11 percent, from approximately 14,500
at the beginning of FY 2005 to nearly 16,400 at the end of FY 2009. After increasing by
8 percent during FY 2006, staffing decreased by 4 percent during FY 2007 and decreased by less
than 1 percent during FY 2008. In FY 2009, the IRS hired more than 2,000 examiners (revenue
agents and tax compliance officers), and the number of revenue officers assigned delinquent
cases increased by approximately 140. These changes totaled to an approximate 9.6 percent
increase in staffing over FY 2008, the largest increase during the past 5 years.
For some time, the total number of tax returns filed and the total dollars the IRS received and
collected (gross collections) had increased. The total number of tax returns filed grew by more
than 5 percent, from 174 million in Calendar Year 2004 to 184 million in Calendar Year 2008.
IRS gross collections grew by 21 percent from $2.27 trillion in FY 2005 to a record high of
$2.75 trillion in FY 2008. 3 However, over the last fiscal year gross collections have fallen by
almost 15 percent to $2.35 trillion. This is the first decrease in total revenue since a 2-year
decline from FY 2001 through FY 2003.



1
  Pub. L. No. 111-5, 123 Stat. 115 (2009).
2
  Collection function and Examination function staff located in field offices, excluding management and overhead
staff.
3
  See Appendix V, Figure 1.
                                                                                                          Page 2
                              Trends in Compliance Activities Through Fiscal
                                               Year 2009



During FY 2009, enforcement revenue collected decreased by 13 percent from $56.4 billion to
$48.9 billion. 4 This amount (not adjusted for inflation) is 3 percent higher than the FY 2005
amount. When releasing the enforcement results for FY 2009, the IRS Deputy Commissioner for
Services and Enforcement attributed the higher numbers in FYs 2007 and 2008 to amounts
collected from settlements of several major tax shelter cases and other enforcement actions, and
also believes that enforcement revenue collections are still at strong levels compared to the past.
In the most recent update, the Government Accountability Office continues to include
enforcement of tax laws as 1 of the 30 high-risk areas in the Federal Government. 5 The
Government Accountability Office states that improvements in compliance with tax laws will
require efforts by the IRS and Congress. Continued effort to improve compliance is important to
reducing the tax gap and maintaining the integrity of the voluntary tax compliance system. In
their report, the Government Accountability Office noted that “many experts believe that the tax
gap was underestimated in 2001 and has grown larger since then.”
According to a tax gap strategy document, the tax gap for Tax Year 2001 was $345 billion
($285 billion from underreporting, $33 billion from underpaying, and $27 billion from
nonfiling), representing a compliance rate of about 84 percent. 6 The purpose of the strategy
document was to provide a broad base on which to build future efforts to address the tax gap. In
August 2007, the IRS released a report that builds on the strategy by providing details about
actions planned to reduce the tax gap. 7 In July 2009, another update on reducing the tax gap
summarized what actions were completed and provided a status update on actions in process,
including legislative proposals included with the Administration’s FY 2010 budget. 8
The IRS is continuing to update measures of the tax gap and identify methods to address it. It is
conducting annual compliance research studies on individual taxpayers and plans to include
studies on other segments of the taxpaying population that should help update tax gap
measurements and might lead to improved selection criteria to identify tax returns for
examination. A study of the employment tax has been started and a study of corporations is still
being considered for the future. In addition, information has been delivered to a private
contractor that will be used for a study to estimate the number of, and tax liabilities for, nonfilers.
However, the IRS’ strategy for reducing the tax gap is largely dependent on funding for
additional compliance resources and legislative changes. Therefore, long-term success will in
large part be dependent on reducing risk factors, some of which are beyond the control of the
IRS. One proposal, to add information reporting requirements, is a proven method for increasing

4
  See Appendix V, Figure 2.
5
  HIGH-RISK SERIES – An Update (GAO-09-271, dated January 2009).
6
  A Comprehensive Strategy for Reducing the Tax Gap (U.S. Department of the Treasury, Office of Tax Policy,
dated September 26, 2006).
7
  Reducing the Federal Tax Gap – A Report on Improving Voluntary Compliance (IRS, dated August 2, 2007).
8
  Update on Reducing the Federal Tax Gap and Improving Voluntary Compliance (U.S. Department of the
Treasury, dated July 8, 2009).
                                                                                                        Page 3
                              Trends in Compliance Activities Through Fiscal
                                               Year 2009



compliance. While outside stakeholder groups have expressed concern about the increased
burden of additional information reporting requirements, 66 percent of taxpayers surveyed cited
information reporting as a factor for reporting and paying taxes honestly. 9
During FY 2009, the IRS implemented or re-emphasized procedures and processes to allow
greater flexibility for dealing with taxpayers that become delinquent with their tax obligations
due to current economic conditions. However, the full impact this situation is having on
compliance is not known. 10

Collection Function Compliance Activities Showed Mixed Results
Collection function activities had mixed results over the past 5 years. FY 2009 showed
continued increases in the use of collection enforcement tools and Taxpayer Delinquency
Investigations (TDI) closed due to receipt of delinquent tax returns. However, other results were
not as positive and might be attributed, at least in part, to the declining economy.
The number of Collection Field function (CFf) revenue officer personnel working delinquent
cases increased nearly 4 percent (to 3,752) during FY 2009. 11 Since the start of FY 2005,
revenue officer staffing has decreased by almost 1 percent. There are plans to hire about
360 revenue officers during FY 2010, of which 40 are for attrition replacement.
In September 2006, the IRS started assigning balance-due cases to private collection agencies
(hereafter referred to as agencies). However, in March 2009, the IRS announced that it decided
not to renew the contracts with the agencies. As of August 28, 2009, the IRS had removed all
Federal tax information from the agencies’ computer systems and work sites.
Due to recent hiring efforts in FY 2009, the IRS anticipates having more flexibility in assigning
cases based on the areas of greatest need, rather than filtering limited cases through the
agencies. 12 However, these new employees need to be trained and will not have an immediate
impact because of the time required to train them and because experienced employees will need
to be taken off line during the training period. Additionally, the IRS is planning to add two new
Automated Collection System (ACS) sites. During FY 2010, one of the new sites is to become
operational and an implementation plan is to be developed for the other site. Based on current
case and selection prioritization methods, it is unlikely that the new employees or ACS sites will
be assigned many of the types of cases that were worked by the agencies because higher priority



9
  IRS Oversight Board 2009 Taxpayer Attitude Survey (IRS Oversight Board, dated February 2010).
10
   Collection Alternatives Were Available to Economically Distressed Taxpayers, but Some New Processes Need
Improvement (Reference Number 2010-30-032, dated March 15, 2010).
11
   See Appendix V, Figure 6.
12
   Appropriate Actions Were Taken to Conclude Work on the Private Debt Collection Program (Reference
Number 2010-30-013, dated January 8, 2010).
                                                                                                       Page 4
                              Trends in Compliance Activities Through Fiscal
                                               Year 2009



cases are normally assigned to ACS and CFf employees. However, the IRS is currently studying
ACS case selection and prioritization so different types of cases might be assigned in the future.

The following Collection function operations showed improvement during
FY 2009
     •   While more Taxpayer Delinquent Accounts (TDA) were received than closed, the gap
         between TDA receipts and TDA closures for FY 2009 narrowed to almost 22 percent (to
         1,477,621 accounts). 13 This is the second straight year that this gap has continued to
         close, after reaching a high of 1,914,508 accounts during FY 2007.
     •   The number of TDI tax periods closed because delinquent tax returns were received by
         the IRS increased by almost 13 percent from FY 2008. 14 This increase was largely driven
         by an increase in closures by ACS and Compliance Services Collection Operations of
         almost 17 percent and 20 percent, respectively. Overall, there has been a 52 percent
         increase since FY 2005.

The following Collection function operations showed mixed results or declined
during FY 2009
     •   The number of TDAs closed (excluding shelved accounts) showed a minimal increase,
         but the number closed by full payment decreased by about 14 percent from FY 2008. 15
         This represents the first decrease in the 5-year period.
     •   The use of enforcement tools (liens, levies and seizures) showed mixed results. The use
         of liens has increased by 85 percent during the 5-year period. During FY 2009 alone, the
         number of liens issued by the CFf and ACS increased by 10 percent and 45 percent,
         respectively, to a 5-year high. 16
         Levies increased by a significant 32 percent during FY 2009, driven mainly by a 37
         percent increase in levies issued by the ACS. However, the number of seizures has
         decreased by 14 percent since reaching a 5-year high in FY 2007. 17
     •   The amount of gross accounts receivable increased by almost 8 percent (to $328 billion)
         in FY 2009, after increasing by 5 percent during FY 2008. 18 The FY 2009 amount
         represents the 5-year high. It should be noted that this year’s increase occurred when
         there was a decrease in gross collections.


13
   See Appendix V, Figure 16.
14
   See Appendix V, Figure 15.
15
   See Appendix V, Figures 18 and 19.
16
   See Appendix V, Figure 20.
17
   See Appendix V, Figures 21 and 22.
18
   See Appendix V, Figure 2.
                                                                                           Page 5
                                 Trends in Compliance Activities Through Fiscal
                                                  Year 2009



         To show the make up of gross                       Figure 1: FY 2009 Percentage of Accounts Receivable
         accounts receivable, we                                          by Source of Assessment
         obtained the amount by source
                                                                       Other
         of assessment. This is                                       14.81%
                                                                                                         Balance Due
         illustrated in Figure 1 as                                                                        25.69%
                                                             Math Error
         percentages of the total                             0.66%
         amount as of the end of
         FY 2009. IRS records show
                                                             TFRP
         that over the last 5 years these                    4.40%
         percentages have not
         materially changed except for
         an increase in the Substitute
         for Return (SFR)/6020(b)
         return category as additional                         SFR/6020B                                   Examination
         emphasis was placed on the                             28.97%                                       15.96%
         program. 19                                                                              TDI
                                                                                                 9.52%
     •   The average amount collected
                                            Source: TIGTA analysis of data received from the Office of the Chief Financial
         per CFf staff year on TDAs        Officer. TFRP = Trust Fund Recovery Penalty.
         decreased by approximately
         14 percent from FY 2008. FY 2009 also showed a nearly 23 percent decrease
         (to $446,561) from the 5-year high in FY 2005 of $576,777. 20
     •   Dollars collected on TDAs by ACS and CFf employees totaled approximately
         $5.5 billion, a decrease of 2 percent from FY 2008, and a decrease of nearly 14 percent
         from a high of $6.3 billion in FY 2007. 21 This year’s amount is the lowest in the last
         5 years.
Figure 2 shows that both the ACS and CFf made the majority of FY 2009 collections within the
first year of receipt of the case within the function. This percentage of collections during the first
year and after the first year has been a consistent trend over the past 5 years. 22




19
   See Appendix V, Figure 3.
20
   See Appendix V, Figure 7.
21
   See Appendix V, Figure 8.
22
   See Appendix V, Figure 9 and Figure 10.
                                                                                                                   Page 6
                                    Trends in Compliance Activities Through Fiscal
                                                     Year 2009




         Figure 2: Percentage of Dollars Collected by Number of Weeks the TDA was Assigned to the ACS and CFf




                              ACS                          0-8 Weeks                             CFf




                                                                                              11%
                        15%
                                     24%
                                                           9-25 Weeks                                        24%

                                                                                       23%
                  20%

                                                           26-52 Weeks

                                                                                                       43%
                                41%


                                                           Over 52 Weeks




                        Source: IRS Collection Report 5000-2. Percentages do not equal 100% due to rounding.



An inventory of unassigned collection cases is maintained in the Queue. The number of
taxpayers with TDAs in the Queue and the amount owed on these accounts increased to 5-year
highs during FY 2009. The number of taxpayer accounts increased to 1,109,057, approximately
13 percent more than FY 2008 numbers. At the same time, the amount owed increased by
6 percent to $45.9 billion. The number of taxpayers with TDIs also increased to 887,985, an
increase of 4 percent from FY 2008. 23 Although many of the cases in the Queue might be
assigned to be worked, a significant number might never receive additional contact to resolve the
delinquency. 24
Although the Queue inventory includes a substantial number of taxpayer accounts, its inventory
figures do not include the millions of TDA and TDI tax periods shelved or surveyed (removed)
from Collection function inventory during the last few years. In FY 2005 through FY 2009, the
IRS removed more than 4 million TDAs 25 (with balance-due amounts totaling $18.8 billion) and
7.2 million TDI tax periods from Collection function inventory. These cases were removed
because they were potentially less productive than other available inventory and might never
receive additional contact to resolve the delinquency.


23
   See Appendix V, Figures 11 and 17.
24
   Before accounts get assigned to the Queue, the IRS has already sent notices to the taxpayer about the delinquency.
After the notice process, some cases go directly to the Queue while others are worked in the ACS and may have
received enforcement action such as a lien or levy.
25
   See Appendix V, Figure 12.
                                                                                                                   Page 7
                               Trends in Compliance Activities Through Fiscal
                                                Year 2009



The Collection function is unable to work all of the existing accounts in the Queue with current
staffing, and the number of TDA receipts is outpacing closures. If changes do not occur, a
significant number of cases will continue to not receive additional contact to resolve the
delinquency. This reinforces the need for additional resources to work the cases.

Examination Function Compliance Activities Also Showed Mixed
Results
A continued effort to increase examination coverage is important to maintaining the
effectiveness of the voluntary tax compliance system. The IRS Oversight Board studies of
taxpayer attitudes showed that a larger percentage (13 percent) of taxpayers believed that it was
acceptable to cheat on their income taxes in Calendar Year 2009 than did in Calendar
Year 2008 (9 percent). Fear of examination is a major factor influencing taxpayers to report
taxes honestly. In Calendar Year 2008, 59 percent of taxpayers surveyed cited fear of
examination as a factor that influenced their voluntary compliance. This increased to 63 percent
in Calendar Year 2009 and is the largest percentage over the past 5 years.
As of the end of FY 2009, the total number of field Examination function personnel who conduct
examinations of tax returns increased by more than 11 percent compared to FY 2008. The
number of revenue agents increased to 11,238, while the number of tax compliance officers
increased to 1,267. 26 The number of examiners in field offices 27 has increased by about
17 percent since FY 2005.
The Examination function hired approximately 2,000 revenue agents and tax compliance officers
during FY 2009. This is the most hiring for these positions during the 5-year period. In
addition, the Small Business/Self-Employed Division plans to hire almost 900 revenue agents
and tax compliance officers during FY 2010. However, the IRS will not immediately realize an
increase in productivity from these new hires because of the time required to train them and
because experienced examiners will need to be used as training coaches and classroom
instructors, which reduces their availability to conduct examinations. The Examination function
also continues to study methods that will result in identifying for examination those tax returns
that contain greater potential for noncompliance.
With the increase in staffing levels since FY 2008, Examination function compliance activities
showed some slight increases in a few areas but remained at approximately FY 2008 levels in
other areas. After decreasing slightly in FY 2008, the percentage of tax returns examined
increased slightly during FY 2009, returning approximately to FY 2007 levels. At the same
time, the dollar yield per hour increased for individual tax return examinations performed by tax


26
  See Appendix V, Figure 23.
27
  Examiners in field offices include revenue agents, tax compliance officers, tax examiners, and revenue officer
examiners.
                                                                                                            Page 8
                                     Trends in Compliance Activities Through Fiscal
                                                      Year 2009



compliance officers as well as for individual, corporate, and other types of tax return
examinations performed by revenue agents. 28

Overall, the number of tax returns examined increased, but most examinations
were conducted via correspondence
When analyzing examination coverage rates, it is important to recognize differences in the types
of contacts that are counted in Examination function statistics. Examinations range from
issuance of an IRS notice asking for clarification of a single tax return item that appears to be
incorrect (correspondence examination) to a face-to-face interview and review of the taxpayer’s
records. Face-to-face examinations are generally more comprehensive and time consuming for
the IRS and the taxpayers, and they typically result in higher dollar adjustments to the tax
amounts. Thus, caution should be used when combining statistics from the various Examination
function programs into overall examination rates. During FY 2009, approximately 71 percent of
all examinations were conducted via correspondence.
In addition to conducting examinations, the IRS uses several computer-matching and automated
error-checking routines to check the accuracy of tax returns. 29 These routines often identify
adjustments to tax liabilities. However, these adjustments are not included in the traditional
“audit rates” and are not generally reported separately as enforcement efforts.
The overall percentage of tax returns examined (including face-to-face and correspondence
examinations) increased by 2 percent 30 from FY 2008 and has returned approximately to
                                                                            FY 2007 levels. The overall
               Figure 3: Percentage Change in the Number                    percentage of tax returns
                   of Field Examiners and Examinations
                                                                            examined has also increased
                  T ota l F ie ld Exam ine rs T otal Fie ld Exam ina tio ns by 14 percent since FY 2005.
        3 5%

        3 0%
                                                                               Figure 3 compares the change
        2 5%
                                                                               in field Examination function
                                                                               staffing to the change in the
        2 0%
                                                                               number of examinations by
        1 5%
                                                                               field employees for all types
        1 0%
                                                                               of tax returns from FY 2005
         5%                                                                    through FY 2009. As
         0%                                                                    compared to FY 2007 and
         FY 200 5         FY 2 006        FY 200 7     FY 2 008   FY 20 09
                                                                               2008, Examination function
     Source: IRS Data Book and Examination Table 37.




28
   See Appendix V, Figures 25 through 28.
29
   See Appendix V, Figures 47 and 48.
30
   The IRS has traditionally calculated the percentage of examination coverage by dividing the number of returns
examined in the current fiscal year by the number of returns filed in the preceding calendar year.
                                                                                                           Page 9
                               Trends in Compliance Activities Through Fiscal
                                                Year 2009




staffing has increased dramatically due to the previously noted hiring of additional examiners in
FY 2009.

Examination rates for the various types of tax returns showed mixed results
The following paragraphs summarize examination coverage for various types of tax returns:
     •   Individual Income Tax Examinations – FY 2005 represented the 5-year low, with only
         1,199,035 (1 of every 109) individual income tax returns examined. Since then, the
         number of tax returns examined has continuously increased and 1,425,888 (1 of every 97)
         were examined in FY 2009. This is an increase of 19 percent over FY 2005. 31
         During FY 2009, more than 81 percent of the examinations of individuals were
         performed by correspondence. 32 Only 1 of every 524 individual income tax returns filed
         received a face-to-face examination (an almost 4 percent increase in coverage over
         FY 2008), while 1 of every 120 received a correspondence examination (a 1 percent
         increase in coverage over FY 2008).
         A TIGTA review performed of Small Business/Self-Employed Division Examination and
         Campus Compliance Services functions determined that examiners were not always
         expanding examinations to prior and/or subsequent year tax returns. The IRS could
         potentially be missing an opportunity to conduct examinations more efficiently and
         consistently from year to year, and expanding examinations could increase the efficiency
         of performing examinations. The IRS agreed with our finding and planned to take
         corrective actions. 33 Once implemented, this action could increase the number of returns
         examined.
     •   Corporate Income Tax Examinations – The number of corporate income tax returns
         examined (excluding returns for foreign corporations and S Corporations) decreased by
         more than 7 percent in FY 2009, after increasing by more than 4 percent and 1 percent,
         respectively, during FYs 2007 and 2008. However, the number of examinations has
         decreased by only 3 percent since FY 2005. From FY 2005 through FY 2009, the total
         number of corporate tax returns examined increased from 28,687 (1 of every 80 returns
         filed) in FY 2005 to a 5-year high of 29,986 (1 of every 74 returns filed) in FY 2008 and
         decreased back to 27,834 (1 of every 79 returns filed) in FY 2009. 34 The number of

31
   This includes examinations conducted by employees located in field offices and campuses. See Appendix V,
Figures 31 and 32.
32
   We computed this percentage using the audit technique to identify whether there was actual face-to-face contact
during the examination. This number differs from publicized reports that rely solely on the organizational code.
33
   Examiners Did Not Always Properly Select the Prior and/or Subsequent Year Tax Returns (Reference
Number 2009-30-034, dated February 13, 2009).
34
   See Appendix V, Figures 31, 37, and 38 for coverage by size of corporation.
                                                                                                           Page 10
                              Trends in Compliance Activities Through Fiscal
                                               Year 2009



         corporate income tax returns filed decreased by almost 4 percent during the 5-year
         period. Because the number of returns filed also decreased, the impact on the
         examination coverage rate was not material.
         The number of corporate tax returns examined with assets of less than $10 million
         decreased by 11 percent in FY 2009. During the same period, the number of corporate
         tax returns examined with assets of $10 million and greater increased by only 1 percent,
         but within this category, examinations of returns with assets of $250 million and greater
         increased by more than 3 percent.
     •   S Corporation Return Examinations – The number of S Corporation tax returns examined
         increased by almost 70 percent from FYs 2005 to 2007, decreased by almost 6 percent in
         FY 2008, and increased by 5 percent in FY 2009. Since FY 2005, the number of
         S Corporation returns filed has increased by approximately 25 percent. During that
         period, the number of tax returns examined increased from 1 of every 338 returns filed to
         1 of every 252 returns filed. 35 The increase in examination coverage through FY 2007
         can be partly attributed to the IRS research project studying the compliance of
         S Corporation entities. The IRS has now updated the selection criteria formulas used to
         identify these returns for examination.
     •   Partnership Return Examinations – The number of partnership returns examined
         decreased by approximately 3 percent in FY 2009, but has increased by more than
         51 percent since the 5-year low experienced in FY 2005. The number of returns filed
         increased by approximately 32 percent between FYs 2005 and 2009. 36 About 1 of every
         300 returns filed was examined in FY 2005. This increased to about 1 of every 261 for
         FY 2009.
     •   Other Tax Type Examinations (Fiduciary, Employment, Excise, Estate, and Gift Taxes) –
         After experiencing a decrease of almost 17 percent during FY 2008, the overall number
         of examinations in these 5 classes increased by almost 8 percent during FY 2009 and was
         up 42 percent from the 5-year low experienced in FY 2005. The major portion of the
         FY 2008 decrease was due to a decrease in the number of examinations of excise tax
         returns, which had spiked in FY 2007. The increase in the overall number of
         examinations in FY 2009 was led by percentage increases in gift, estate, and fiduciary tax
         returns of 47, 16, and 15 percent, respectively. The number of employment and excise
         returns examined also increased, by 6 and 7 percent. 37




35
   See Appendix V, Figures 31 and 40.
36
   See Appendix V, Figures 31 and 41.
37
   See Appendix V, Figures 31 and 42 through 46.
                                                                                           Page 11
                                  Trends in Compliance Activities Through Fiscal
                                                   Year 2009




Many Examination function productivity indicators showed improvements
Figure 4 shows the dollar yield per hour
for FYs 2005 through 2009 for revenue                Figure 4: Examination Function Dollar Yield per Hour
agents and tax compliance officers.                       RA - Individual     TCO - Individual       RA - Corporate
During FY 2009, the dollar yield per          $3,200

hour for examinations of individual tax       $2,800

returns increased by more than                $2,400

18 percent for revenue agents and by          $2,000

almost 21 percent for tax compliance          $1,600

officers. The yield increased by almost       $1,200


15 percent for revenue agent                   $800


examinations of corporate tax returns          $400
                                                  FY 2005             FY 2006    FY 2007       FY 2008            FY 2009

during FY 2009. The yield for revenue        Source: TIGTA analysis of Examination Table 37. RA = revenue agent.
agent examinations of both individual        TCO = tax compliance officer.
and corporate tax returns has increased
for the first time since FY 2005. Prior to FY 2009, these yields fluctuated in opposite directions
from each other.
The Examination function dollar yield per hour for individual income tax return examinations by
revenue agents has fluctuated since FY 2005. While the hours per return has varied, the yield
fluctuation appears to be largely due to the varied dollar amounts per return over the past 5 years,
which have ranged from $37,523 per return to $64,958 per return. Dollar yield per hour for
individual income tax return examinations by tax compliance officers has increased every year
over the past 5 years, due to a consistent increase in dollars per return.
The dollar yield per hour for corporate tax return examinations increased by 40 percent from
FYs 2005 to 2006 and then decreased to below the FY 2005 level for FYs 2007 and 2008.
During FY 2009, the dollar yield per hour has increased back above FY 2005 levels, but was still
well below the 5-year high from FY 2006. During FYs 2005 to 2009, the hours spent examining
each tax return has remained relatively constant. However, the average dollar amounts assessed
per return fluctuated, increasing by 55 percent for FY 2006 before decreasing and remaining
relatively constant until FY 2009, when it increased by 13 percent from FY 2005 levels. 38 The
net effect was material variations in the dollar yield per hour for FYs 2005 through 2007, a slight
increase in FY 2008, and almost a 15 percent increase in FY 2009.
An IRS research project was conducted of tax returns for individuals to obtain updated
information about compliance that could be used to update return selection formulas. The
updated formulas for individuals were implemented in January 2007 and IRS data indicate that
the no-change rate for individual tax returns examined by revenue agents has decreased from


38
     See Appendix V, Figure 26.
                                                                                                                Page 12
                                  Trends in Compliance Activities Through Fiscal
                                                   Year 2009



13 to 10 percent (a 23 percent decrease) and decreased from 10 to 9 percent (a 10 percent
decrease) for tax compliance officers since FY 2007. The no-change rate results of revenue
agent examinations for other types of tax returns varied over the 5-year period. 39 As mentioned
previously, the IRS continues to conduct studies with the goal of improving the return selection
process for other types of tax returns.

Conclusion
The IRS faced many challenges during FY 2009 with the implementation of provisions related to
new tax legislation and the downturn in the economy. The economic condition was especially
evident in decreased collection of revenue. However, many other indicators showed positive
results. The IRS is continuing its efforts to improve the business processes and workload
selection methods because the processes/methods appear to be having a positive impact on
compliance efforts. In addition, the hiring and training of new enforcement personnel continues
to be a top priority because much of the benefit of recent hiring has yet to be fully realized, many
experienced employees in those positions will become eligible to retire in the next few years, and
the balance due cases are no longer being assigned to agencies.




39
     See Appendix V, Figure 29.




                                                                                            Page 13
                          Trends in Compliance Activities Through Fiscal
                                           Year 2009



                                                                                   Appendix I

        Detailed Objective, Scope, and Methodology

The overall objective was to provide various statistical information regarding Collection and
Examination function activities. We conduct this review each year, and it is included as part of
our FY 2010 Annual Audit Plan and addresses the major management challenge of Tax
Compliance Initiatives.
To accomplish our objective, we:
I.     Obtained and analyzed information relating to Compliance activities.
       A. Obtained and analyzed Collection function data. This included but was not limited
          to:
           1. Staffing.
           2. Delinquent accounts and unfiled return investigations.
           3. Enforcement actions (liens, levies, and seizures).
       B. Obtained and analyzed Examination function data. This included but was not limited
          to:
           1. Staffing.
           2. Examinations of individual and business tax returns compared to the number of
              returns filed for each type of return.
           3. Productivity results for individual and business tax returns.
       C. Obtained and analyzed other Compliance-related data. This included but was not
          limited to:
           1. Enforcement revenue.
           2. Gross collections and accounts receivable.
           3. Math Error, Underreporter, and Automated Substitute for Return cases.
       D. Reviewed applicable TIGTA and Government Accountability Office reports for
          relevant information.
       E. Obtained information regarding aberrations in the data from applicable IRS personnel
          and documents.


                                                                                          Page 14
                          Trends in Compliance Activities Through Fiscal
                                           Year 2009



Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We did not assess internal
controls because doing so was not applicable within the context of our objective. Our analyses
were limited to identifying changes and trends in data prepared and reported by the IRS.




                                                                                        Page 15
                        Trends in Compliance Activities Through Fiscal
                                         Year 2009



                                                                             Appendix II

                 Major Contributors to This Report

Margaret E. Begg, Assistant Inspector General for Audit (Compliance and Enforcement
Operations)
Carl L. Aley, Director
Glen J. Rhoades, Audit Manager
Darryl J. Roth, Acting Audit Manager
Joseph P. Snyder, Lead Auditor
Jeffrey K. Jones, Senior Auditor
Curtis J. Kirschner, Senior Auditor




                                                                                      Page 16
                       Trends in Compliance Activities Through Fiscal
                                        Year 2009



                                                                  Appendix III

                        Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Commissioner, Large and Mid-Size Business Division SE:LM
Commissioner, Small Business/Self-Employed Division SE:S
Commissioner, Wage and Investment Division SE:W
Deputy Commissioner, Large and Mid-Size Business Division SE:LM
Deputy Commissioner, Small Business/Self-Employed Division SE:S
Deputy Commissioner, Wage and Investment Division SE:W
Director, Office of Research, Analysis, and Statistics RAS
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
       Commissioner, Large and Mid-Size Business Division SE:LM
       Commissioner, Small Business/Self-Employed Division SE:S
       Commissioner, Wage and Investment Division SE:W




                                                                        Page 17
                           Trends in Compliance Activities Through Fiscal
                                            Year 2009



                                                                                   Appendix IV

                                Glossary of Terms

Automated Collection System – A telephone contact system through which telephone assistors
collect unpaid taxes and secure tax returns from delinquent taxpayers who have not complied
with previous notices.
Automated Substitute for Return System – A system designed to assess taxes on wage earners
who fail to file tax returns. It analyzes information submitted to the IRS and historical tax return
information.
Balance Sheet – A statement of the financial assets and liabilities of a business at a given date
filed with a corporate income tax return. It is used by the IRS to group businesses by asset size.
Campus – The data processing arm of the IRS. The campuses process paper and electronic
submissions, correct errors, and forward data to the Computing Centers for analysis and posting
to taxpayer accounts.
Collection Field function – The unit in the field offices consisting of revenue officers who
handle personal contacts with taxpayers to collect delinquent accounts or secure unfiled returns.
Compliance Services Collection Operations – An IRS function that mails the balance-due and
return-delinquency notices to taxpayers and analyzes and responds to taxpayer correspondence.
This function was formerly known as the Service Center Collection Branch.
Computing Centers – IRS facilities that support tax processing and information management
through a data processing and telecommunications infrastructure.
Coordinated Industry Case – An Examination function classification used for the largest and
most complex corporations.
Corporate Income Tax Return – U.S. Corporation Income Tax Return (Form 1120). It is used
by corporations to report the corporate income tax.
Dollar Yield per Hour – The amount of tax adjustments on tax returns divided by the number of
hours spent examining those returns.
Employment Tax Returns – Various Form 94X return series (primarily Employer’s Annual
Federal Unemployment (FUTA) Tax Return (Form 940) and Employer’s QUARTERLY Federal
Tax Return (Form 941)) filed by businesses to report things such as employer’s Federal
unemployment taxes and Federal taxes withheld.
Enforcement Revenue – Any tax, penalty, or interest received from a taxpayer as a result of an
IRS enforcement action (usually an examination or a collection action).
                                                                                            Page 18
                           Trends in Compliance Activities Through Fiscal
                                            Year 2009



Estate Tax Return – United States Estate (and Generation-Skipping Transfer) Tax Return
(Form 706). It is filed for estates of certain deceased persons.
Examination (Face-to-Face) – Field examinations of individuals, partnerships, or corporations
that occur either at the taxpayer’s place of business or through interviews at an IRS office.
Excise Tax Return – Quarterly Federal Excise Tax Return (Form 720) is used to report and pay
certain taxes, such as those on transportation and fuel.
Fiduciary Income Tax Returns – Income tax returns filed for estates and trusts.
Gift Tax Return – United States Gift (and Generation-Skipping Transfer) Tax Return
(Form 709) is used to report transfers subject to the Federal gift taxes and to calculate the taxes
due on those transfers.
Gross Accounts Receivable – Includes all unpaid tax, with accrued penalties and interest, on
taxpayers’ delinquent accounts.
Individual Income Tax Returns – U.S. Individual Income Tax Returns (Form 1040 series) are
annual income tax returns filed by citizens or residents of the United States.
IRS Data Book – Provides information on returns filed and taxes collected, enforcement,
taxpayer assistance, the IRS budget and workforce, and other selected activities.
IRS Oversight Board – A nine-member independent body charged to oversee the IRS in its
administration, management, conduct, direction, and supervision of the execution and application
of the internal revenue laws and provide experience, independence, and stability to the IRS so it
may move forward in a cogent, focused direction.
Levy – A method used by the IRS to collect outstanding taxes from sources such as bank
accounts and wages.
Lien – An encumbrance on property or rights to property as security for outstanding taxes.
Math Error Program – A process in which the IRS contacts taxpayers through the mail or by
telephone when it identifies mathematical errors or mismatches of taxpayer information that
would result in tax changes.
No-Change Rate – Percentage of examinations where the examiner closed the case with no
recommended tax change.
Overhead Staff – Support staff performing indirect duties within the function such as
automation support, technical support, and quality review.
Partnership Return – U.S. Return of Partnership Income (Form 1065) is used to report the
income and expenses of domestic partnerships and the share distributed to each partner.



                                                                                             Page 19
                           Trends in Compliance Activities Through Fiscal
                                            Year 2009



Queue – An automated holding file for unassigned inventory of delinquent cases for which the
Collection function does not have enough resources to immediately assign the cases for contact.
Revenue Agent – An employee in the Examination function who conducts face-to-face
examinations of more complex tax returns such as businesses, partnerships, corporations, and
specialty taxes (e.g., excise tax returns).
Revenue Officer – An employee in the CFf who attempts to contact taxpayers and resolve
collection matters that have not been resolved through notices sent by the IRS campuses or the
ACS.
Revenue Officer Examiner – A revenue officer who has been trained to conduct examinations
of employment tax returns.
S Corporation Tax Return – U.S. Income Tax Return for an S Corporation (Form 1120S) is
filed by qualifying small business corporations and includes amounts distributed to shareholders.
Seizure – The taking of a taxpayer’s property to satisfy his or her outstanding tax liability.
Shelved or Surveyed Cases – Delinquent unpaid accounts or investigations of unfiled tax
returns that have been taken out of the Collection function inventory because they are of lower
priority than other available inventory.
Substitute for Return/6020(b) Return – Tax returns prepared by the IRS, based on Internal
Revenue Code provisions, when taxpayers appear to be liable but have not voluntarily filed the
returns.
Tax Compliance Officer/Tax Auditor – An employee in the Examination function that
primarily conducts examinations of individual taxpayers through interviews at IRS field offices.
The position title was changed in 2002 from tax auditor to tax compliance officer.
Tax Examiner – In the context of this report, an employee located in a field office who conducts
examinations through correspondence. However, the tax examiner position is also used for
many other types of positions located in various IRS offices.
Tax Gap – The difference between what taxpayers should have paid and what they timely paid.
Tax Period – Refers to each tax return filed by the taxpayer for a specific period (year or
quarter) during a calendar year for each type of tax.
Taxpayer Delinquency Investigation – An unfiled tax return(s) for a taxpayer. One TDI exists
for all delinquent tax periods for a taxpayer.
Taxpayer Delinquent Account – A balance-due account of a taxpayer. A separate TDA exists
for each delinquent tax period.



                                                                                              Page 20
                          Trends in Compliance Activities Through Fiscal
                                           Year 2009



Trust Fund Recovery Penalty – When a company does not pay the taxes it withholds from
employee wages, such as Social Security or individual income tax, the IRS has the authority to
assess all responsible corporate officers individually for the taxes withheld via the Trust Fund
Recovery Penalty.
Underreporter Program – A process that matches items reported on an individual’s income tax
return to information supplied to the IRS from outside sources (such as employers, banks, and
credit unions) to determine if the taxpayer’s tax return reflected the correct amounts and if the
tax amount is correct.




                                                                                          Page 21
                                 Trends in Compliance Activities Through Fiscal
                                                  Year 2009



                                                                                                             Appendix V

            Detailed Charts of Statistical Information

Figure 1 – Gross Collections by Type of Tax........................................................Page 25
Figure 2 – Amount of Enforcement Revenue Collected Compared to
           Gross Accounts Receivable ..................................................................Page 25
Figure 3 – Gross Accounts Receivable by Source of Assessment ........................Page 26
Figure 4 – Total Amount Collected During Notice Status ....................................Page 26
Figure 5 – Amount Collected During Notice Status for Selected
           Sources of Assessment .........................................................................Page 27
Figure 6 – Number of CFf Revenue Officers Assigned Delinquent Cases
           at the End of Each Year ........................................................................Page 27
Figure 7 – Average Dollars Collected per Staff Year on TDA Tax Periods
           by the CFf ............................................................................................Page 28
Figure 8 – Net Amounts Collected on TDA Tax Periods by the CFf and ACS ....Page 28
Figure 9 – Total Dollars Collected by Number of Weeks
           Assigned to the ACS.............................................................................Page 29
Figure 10 – Total Dollars Collected by Number of Weeks
            Assigned to the CFf............................................................................Page 29
Figure 11 – Taxpayers With TDAs and TDIs Maintained in the Queue ...............Page 30
Figure 12 - TDA and TDI Tax Periods Shelved or Surveyed ...............................Page 30
Figure 13 – Gap Between TDI Tax Period Receipts and Closures, Including
            TDI Tax Period Closures as a Percentage of Receipts .......................Page 31
Figure 14 – Number of TDI Tax Periods Closed by Collection Functions ...........Page 31
Figure 15 – Number of TDI Tax Periods Closed by Collection Functions
            With Receipt of a Delinquent Tax Return ..........................................Page 32
Figure 16 – Gap Between TDA Tax Period Receipts and Closures, Including
            TDA Closures as a Percentage of Receipts ........................................Page 32
Figure 17 – Number of Taxpayers and Amount Owed in Queue Inventory .........Page 33


                                                                                                                        Page 22
                                Trends in Compliance Activities Through Fiscal
                                                 Year 2009



Figure 18 – Number of TDA Tax Periods Closed by Collection Functions,
            Excluding Shelved Accounts..............................................................Page 33
Figure 19 – Number of TDA Tax Periods Closed With Full Payment by
            Collection Functions...........................................................................Page 34
Figure 20 – Number of Liens Filed by the CFf and ACS......................................Page 34
Figure 21 – Number of Levies Issued by the CFf and ACS ..................................Page 35
Figure 22 – Number of Seizures ............................................................................Page 35
Figure 23 – Number of Examination Function Staff Conducting
            Examinations of Tax Returns at the End of Each Year......................Page 36
Figure 24 – Percentage Change From FY 2005 of All Tax Returns
            Filed and Examined............................................................................Page 36
Figure 25 – Revenue Agent Results on U.S. Individual Income Tax
            Returns (Form 1040), Percentage Change From FY 2005.................Page 37
Figure 26 – Revenue Agent Results on Corporate Income Tax Returns,
            Percentage Change From FY 2005 ....................................................Page 37
Figure 27 – Revenue Agent Results on Other Types of Tax Returns,
            Percentage Change From FY 2005 ....................................................Page 38
Figure 28 – Tax Compliance Officer Results on Forms 1040,
            Percentage Change From FY 2005 ....................................................Page 38
Figure 29 – Revenue Agent and Tax Compliance Officer No-Change
            Rates for Various Types of Tax Returns ............................................Page 39
Figure 30 – Number of Forms 1040 Examined Face-to-Face or Through
            Correspondence ..................................................................................Page 39
Figure 31 – Numbers and Percentages of Individual and Business
            Tax Returns Examined .......................................................................Page 40
Figure 32 – Percentage Change From FY 2005 of Forms 1040
            Filed and Examined............................................................................Page 41
Figure 33 – Number of Forms 1040 Filed and Examined .....................................Page 41
Figure 34 – Percentage Change From FY 2005 of Corporate Income
            Tax Returns Filed and Examined .......................................................Page 42
Figure 35 – Percentage of Corporate Income Tax Returns Examined –
            Corporations With Assets of Less Than $10 Million.........................Page 42

                                                                                                                   Page 23
                               Trends in Compliance Activities Through Fiscal
                                                Year 2009



Figure 36 – Percentage of Corporate Income Tax Returns Examined –
            Corporations With Assets of $10 Million and Greater.......................Page 43
Figure 37 – Number of Tax Returns Filed and Examined – Corporations
            With Assets of Less Than $10 Million...............................................Page 43
Figure 38 – Number of Tax Returns Filed and Examined – Corporations
            With Assets of $10 Million and Greater ............................................Page 44
Figure 39 – Percentage Change From FY 2005 of Forms 1120S
            Filed and Examined............................................................................Page 44
Figure 40 – Number of Forms 1120S Filed and Examined...................................Page 45
Figure 41 – Number of Tax Returns Filed and Examined – Partnerships.............Page 45
Figure 42 – Number of Tax Returns Filed and Examined – Fiduciaries ...............Page 46
Figure 43 – Number of Tax Returns Filed and Examined – Employment Tax.....Page 46
Figure 44 – Number of Tax Returns Filed and Examined – Excise Tax...............Page 47
Figure 45 – Number of Tax Returns Filed and Examined – Estates .....................Page 47
Figure 46 – Number of Tax Returns Filed and Examined – Gift Tax ...................Page 48
Figure 47 – Number of Other Compliance Contacts on Forms 1040 ....................Page 48
Figure 48 – Other Compliance Contacts – Forms 1040 Coverage Rate................Page 49




                                                                                                                Page 24
                                                                      Trends in Compliance Activities Through Fiscal
                                                                                       Year 2009



                                                                 Figure 1: Gross Collections by Type of Tax 1

                                   $3.0
                                                                                                2.7             2.7
                                                                            2.5
                                   $2.5            2.3                                                                               2.3
                                                                                                                                            Total


                                   $2.0
              Trillions




                                                                                                                     1.4
                                   $1.5                                                         1.4
                                                                            1.2                                                      1.2
                                                   1.1
                                                                                                                                            Individual
                                                                                                0.8                  0.9
                                   $1.0                                     0.8                                                       0.9
                                                       0.8
                                                                                                                                            Employment

                                                                            0.4                 0.4                  0.4
                                   $0.5            0.3
                                                                                                                                      0.2
                                                                                                                                             Corporate

                                   $0.0
                                    FY 2005                               FY 2006             FY 2007           FY 2008              FY 2009

              Source: TIGTA analysis of IRS Data Book.


                                                             Figure 2: Amount of Enforcement Revenue Collected
                                                                   Compared to Gross Accounts Receivable

                                                                        Enforcement Revenue             Gross Accounts Receivable
                                                $100                                                                                        $330


                                                                                                                                                    Gross Accounts Receivable (Billions)
                                                                                                                              328
                                                                                                                                            $320
               Enforcement Revenue (Billions)




                                                 $90
                                                                                                              304                           $310
                                                 $80                                                                                        $300
                                                                                                 290
                                                                                                                                            $290
                                                 $70
                                                                                                                                            $280
                                                                                    271
                                                 $60
                                                                                                                                            $270
                                                                                                59.2
                                                                258                                           56.4
                                                 $50                                                                                        $260
                                                                                    48.7                                    48.9
                                                               47.3                                                                         $250
                                                 $40
                                                                                                                                            $240

                                                 $30                                                                                        $230
                                                              FY 2005             FY 2006     FY 2007       FY 2008        FY 2009


              Source: Office of Research, Analysis, and Statistics and Chief Financial Officer information.



1
  Income tax on Estates and Trusts is included in individual income tax in FYs 2005-2008. Beginning with
FY 2009, the IRS amended this reporting and Estate and Trust income tax is reported separately. Estate and Trust
income tax for FY 2009 equaled approximately $15 million. The total line includes Excise, Estate, and Gift taxes
also, not just Individual, Corporate, and Employment.
                                                                                                                                                                                           Page 25
                                           Trends in Compliance Activities Through Fiscal
                                                            Year 2009



                              Figure 3: Gross Accounts Receivable by Source of Assessment 2

                     $100
                                                                                            SFR/6020B
                           $90
                                                                                            Balance Due
                           $80

                           $70

                           $60
                Billions




                                                                                            Examination
                           $50
                                                                                            Other
                           $40

                           $30                                                              TDI

                           $20
                                                                                            TFRP
                           $10
                                                                                            Math Error
                              $0
                               FY 2005       FY 2006      FY 2007      FY 2008         FY 2009

                Source: TIGTA analysis of data received from the Office of the Chief Financial Officer.
                TFRP = Trust Fund Recovery Penalty.


                                    Figure 4: Total Amount Collected During Notice Status
                              $12
                                                            10.23
                                                                          9.41
                              $10              8.90
                                    8.26                                                 8.64
                                                                                                 Total
                              $8
                                                            6.00
                   Billions




                                                                          5.62
                              $6                                                         5.14
                                               4.67
                                    4.22                                                         Individual
                              $4
                                                                                                 Business
                                    4.04       4.23         4.23
                                                                          3.79           3.50
                              $2


                              $0
                              FY 2005        FY 2006      FY 2007       FY 2008          FY 2009

                Source: Collection Report 5000-2/242.




2
    Figure 48 shows an increased use of the Automated SFR Program starting in FY 2006.
                                                                                                              Page 26
                              Trends in Compliance Activities Through Fiscal
                                               Year 2009



                      Figure 5: Amount Collected During Notice Status
                             for Selected Sources of Assessment

                                          SFR/6020b                   Math Error       Examination
           $2,500
                                                1,931                 1,830
                              1,825
           $2,000

                                                                                      1,412           1,389
Millions




           $1,500


           $1,000


            $500
                              327               314                    316                             342
                                                                                       298
                              120               110                    158             110             134
                 $0
                          FY 2005             FY 2006             FY 2007            FY 2008         FY 2009

Source: Collection Report 5000-2/242.



     Figure 6: Number of CFf Revenue Officers Assigned Delinquent
                    Cases at the End of Each Year

     4,000
                                                        3,876
                      3,779                                                  3,724                    3,752
     3,500                            3,680                                             3,613

     3,000

     2,500

     2,000
                                                                  `

     1,500

     1,000

           500

             0
                      FY 2004         FY 2005           FY 2006           FY 2007      FY 2008       FY 2009

Source: Collection Report 5000-23.




                                                                                                               Page 27
                                              Trends in Compliance Activities Through Fiscal
                                                               Year 2009



                                     Figure 7: Average Dollars Collected per Staff Year
                                              on TDA Tax Periods by the CFf

               $600,000

                                        576,777
               $550,000                                          567,733
                                                      554,909

                                                                           520,446
               $500,000



               $450,000
                                                                                        446,561

               $400,000



               $350,000



               $300,000



               $250,000



               $200,000
                                        FY 2005       FY 2006    FY 2007   FY 2008      FY 2009

              Source: TIGTA analysis of Collection Reports 5000-2 and 5000-23.


                                   Figure 8: Net Amounts Collected on TDA Tax Periods
                                                  by the CFf and ACS 3
                          $7,000
                                                                 6,344
                                                   6,170
                                   5,848
                          $6,000                                              5,604
                                                                                          $5,476 Total


                          $5,000
               Millions




                                   3,907
                          $4,000                   3,601         3,661

                                                                              3,235

                                                                                           $2,794 CFf
                          $3,000

                                                                 2,683                     $2,681 ACS
                                                   2,569
                          $2,000                                              2,370
                                   1,941


                          $1,000
                              FY 2005             FY 2006       FY 2007      FY 2008          FY 2009

              Source: Collection Report 5000-2.


3
 The dollars collected shown in Figure 8 are the net amounts collected after adjustments such as refunds are
considered. The amounts in Figures 9 and 10 are larger because they show the gross amounts collected.
                                                                                                           Page 28
                                                                      Trends in Compliance Activities Through Fiscal
                                                                                       Year 2009



                                                                   Figure 9: Total Dollars Collected by Number of
                                                                             Weeks Assigned to the ACS

                                                           0-8 Weeks        9-25 Weeks   26-52 Weeks   Over 52 Weeks      Total
                                                 $3,500


                                                                                           2,979                        3,001
                                                 $3,000                     2,830
                                                                                                          2,667
                  Dollars Collected (Millions)




                                                 $2,500



                                                 $2,000
                                                           2,129



                                                 $1,500
                                                                            1,169          1,149                         1,241
                                                                                                          1,045
                                                 $1,000    793                  974
                                                                                                 821                     727
                                                                                                                 728
                                                            563                                  649
                                                                                                                 558     594
                                                  $500      459                 487
                                                                                                 360                     439
                                                            313                                                  336
                                                                                200
                                                    $0
                                                    FY 2005                FY 2006        FY 2007        FY 2008           FY 2009


Source: Collection Report 5000-2.


                                                                  Figure 10: Total Dollars Collected by Number of
                                                                             Weeks Assigned to the CFf
                                                          0-8 Weeks        9-25 Weeks    26-52 Weeks   Over 52 Weeks      Total
                                                 $4,500

                                                           4,051
                                                 $4,000                                    3,846
                                                                            3,777

                                                                                                         3,464
                                                 $3,500
Dollars Collected (Millions)




                                                 $3,000
                                                                                                                       2,983

                                                 $2,500



                                                 $2,000
                                                                            1,605
                                                                                           1,540
                                                            1,387                                        1,453
                                                 $1,500                                                                1,275
                                                                            1,137
                                                           964                             954
                                                 $1,000                                                  836
                                                              904                                                        713
                                                                                           853
                                                           796                                           730
                                                                            721                                          681
                                                  $500

                                                                                           498           446
                                                                             314                                         314
                                                     $0
                                                     FY 2005               FY 2006       FY 2007       FY 2008           FY 2009


Source: Collection Report 5000-2.

                                                                                                                                     Page 29
                                                                   Trends in Compliance Activities Through Fiscal
                                                                                    Year 2009



             Figure 11: Taxpayers With TDAs and TDIs Maintained in the Queue 4

                                                                         Taxpayers With TDAs                         Taxpayers With TDIs
                                                   1,200


                                                                                                                                           1,109
               Number of Taxpayers (Thousands)




                                                   1,000
                                                                                                           998         981

                                                                                                   867                                               888
                                                    800                                                                         851
                                                                                      825
                                                                               779
                                                                   716
                                                    600
                                                            607


                                                    400



                                                    200



                                                      0
                                                             FY 2005            FY 2006             FY 2007             FY 2008              FY 2009

              Source: Collection Reports 5000-2 and 5000-4.


                                                      Figure 12: TDA and TDI Tax Periods Shelved or Surveyed

                                                                                 TDA Tax Periods                       TDI Tax Periods
                                                    3,000
                                                                                                             2,954
               Number of Tax Periods (Thousands)




                                                    2,500



                                                    2,000



                                                    1,500
                                                                                                                                 1,478


                                                    1,000          1,179
                                                                                      1,080
                                                                                                                                               989
                                                                                                                          890
                                                             788                                     764
                                                     500                        613
                                                                                                                                                           522


                                                       0
                                                              FY 2005            FY 2006                 FY 2007             FY 2008               FY 2009

              Source: TIGTA analysis of Collection Reports 5000-2 and 5000-4.



4
 In recent years, the IRS removed from the Queue a large number of TDA cases that were considered to be
potentially less productive than other Queue inventory (see Figure 12). The increase in TDAs could be at least
partially attributed to the additional compliance assessments from working additional SFR cases (Figures 47 and 48)
and the declining economy.
                                                                                                                                                                 Page 30
                                                                                Trends in Compliance Activities Through Fiscal
                                                                                                 Year 2009



                                                      Figure 13: Gap Between TDI Tax Period Receipts and Closures,
                                                      Including TDI Tax Period Closures as a Percentage of Receipts 5

                                                                           TDI Receipts                  TDI Closures                     Closures as a Percentage of Receipts
                                                           7,000                                                                                                                            200%
                                                                                                                                                   181%
                                                                                                                                                                            169%




                                                                                                                                                                                                    Closures as a Percentage of Receipts
                                                           6,000
              Number of Tax Periods (Thousands)




                                                                                                                                                                                            150%
                                                                                               131%                     129%
                                                           5,000


                                                                                                                                                                                            100%
                                                           4,000                                     4,220                    4,198
                                                                            71%                                                                       4,032                    4,139
                                                                   3,726
                                                           3,000                           3,222                     3,242
                                                                                                                                                                                            50%
                                                                               2,635
                                                                                                                                                                      2,450
                                                           2,000                                                                              2,233

                                                                                                                                                                                            0%
                                                           1,000


                                                              0                                                                                                                             -50%
                                                                     FY 2005                 FY 2006                   FY 2007                  FY 2008                  FY 2009

              Source: TIGTA analysis of Collection Report 5000-4.


            Figure 14: Number of TDI Tax Periods Closed by Collection Functions

                                                                                            Queue                     CFf                    ACS                     CSCO

                                                           2,500
                       Number of Tax Periods (Thousands)




                                                                                                                                                                                            1,987
                                                           2,000                                                                      1,906
                                                                                                                                                                 1,823



                                                           1,500                                             1,438

                                                                                                      1,177

                                                                                     964
                                                           1,000                                                                    898
                                                                               769                                                                             777                        800

                                                                                                   805                        772                  766
                                                                                            800                                                          667                  700
                                                                                                                        622                                                         653
                                                             500
                                                                         509
                                                                   393


                                                               0
                                                                         FY 2005                   FY 2006                    FY 2007                    FY 2008                    FY 2009

              Source: TIGTA analysis of Collection Report 5000-4. CSCO = Compliance Services Collection
              Operations.



5
 The closures shown in Figures 13 and 14 do not include the TDIs shelved or surveyed, which are shown in
Figure 12.
                                                                                                                                                                                                                                           Page 31
                                                                             Trends in Compliance Activities Through Fiscal
                                                                                              Year 2009



              Figure 15: Number of TDI Tax Periods Closed by Collection Functions
                           With Receipt of a Delinquent Tax Return

                                                                                          Queue                     CFf                      ACS               CSCO

                                                        2,000




                                                                                                                                                                                                1,540
                 Number of Tax Periods (Thousands)




                                                                                                                                            1,484
                                                        1,500
                                                                                                                                                                      1,289


                                                                                                            1,067

                                                        1,000
                                                                                  792




                                                          500                                         539
                                                                            456                                                                                                           438
                                                                                                                                      399                      375
                                                                                                310                             328
                                                                                                                          249                        266 286                   257 267
                                                                      228                 222
                                                                166
                                                            0
                                                                      FY 2005                   FY 2006                         FY 2007                     FY 2008                   FY 2009

                Source: TIGTA analysis of Collection Report 5000-4. CSCO = Compliance Services Collection
                Operations.

                                                     Figure 16: Gap Between TDA Tax Period Receipts and Closures,
                                                           Including TDA Closures as a Percentage of Receipts 6
                                                                                    TDA Receipts            TDA Closures                Closures as a Percentage of Receipts
                                                        9,000                                                                                                                                       90%

                                                                                                   81%
                    Number of Tax Periods (Thousands)




                                                        8,000                                                                                                                                       80%
                                                                        79%                                                      73%                    73%                           79%
                                                        7,000                                                                                                                                       70%
                                                                                                                      7,130                         7,104
                                                                                                                                                                              6,874
                                                        6,000                                                                                                                                       60%
                                                                                          6,066
                                                                5,803
                                                        5,000                                                                                                                          5,396        50%
                                                                                                                                  5,216                      5,217
                                                                                                      4,891
                                                                            4,585
                                                        4,000                                                                                                                                       40%

                                                        3,000                                                                                                                                       30%

                                                        2,000                                                                                                                                       20%

                                                        1,000                                                                                                                                       10%

                                                           0                                                                                                                                        0%
                                                                  FY 2005                   FY 2006                        FY 2007                    FY 2008                   FY 2009


                Source: TIGTA analysis of Collection Report 5000-2.



6
    The closures shown in Figure 16 do not include the TDAs shelved, which are shown in Figure 12.
                                                                                                                                                                                                          Page 32
                                                                            Trends in Compliance Activities Through Fiscal
                                                                                             Year 2009



           Figure 17: Number of Taxpayers and Amount Owed in Queue Inventory 7

                                                                                      Amounts Owed in the Queue                                  Number of Taxpayers

                                                    $60,000                                                                                                                                  1,200
                                                                                                                                                                           1,109

                                                                                                                                                 981
                                                    $50,000                                                                                                                                  1,000




                                                                                                                                                                                                     Number of Taxpayers (Thousands)
                                                                                                                          867
                                                                                                                                                                          $45,863
                       Amount Owed (Millions)




                                                                                                  779                                         $43,210
                                                    $40,000                                                                                                                                  800


                                                                           607                                           $34,863
                                                    $30,000                                                                                                                                  600

                                                                                                 $27,227

                                                    $20,000                                                                                                                                  400
                                                                      $20,293


                                                    $10,000                                                                                                                                  200



                                                           $0                                                                                                                                0
                                                                      FY 2005                   FY 2006                  FY 2007              FY 2008                     FY 2009


              Source: TIGTA analysis of Collection Report 5000-2.


                                                                  Figure 18: Number of TDA Tax Periods Closed
                                                                by Collection Functions, Excluding Shelved Accounts
                                                                                           ACS                     CFf                   Queue                       CSCO

                                                   4,000
                                                                                                                                                                           3,630
                                                                                                                   3,492
               Number of Tax Periods (Thousands)




                                                                                                                                              3,462
                                                   3,500
                                                                                        3,265
                                                           3,052
                                                   3,000


                                                   2,500


                                                   2,000


                                                   1,500
                                                                                                                           1,226                       1,201                        1,249
                                                                   1,081                        1,097
                                                   1,000


                                                    500
                                                                           413                          480                        445                         477                          469
                                                                                 39                           49                         52                          76                            48
                                                      0
                                                                    FY 2005                      FY 2006                    FY 2007                    FY 2008                       FY 2009

              Source: TIGTA analysis of Collection Report 5000-2. CSCO = Compliance Services Collection
              Operations.




7
 The increase shown here could be at least partially attributed to the additional compliance assessments from
working additional SFR cases (Figures 47 and 48) and the declining economy.
                                                                                                                                                                                                                                       Page 33
                                                          Trends in Compliance Activities Through Fiscal
                                                                           Year 2009



                                                  Figure 19: Number of TDA Tax Periods Closed
                                                    With Full Payment by Collection Functions
                                                                   ACS                     CFf                   Queue                      CSCO

                                    1,400
                                                                                                                      1,364
Number of Tax Periods (Thousands)




                                    1,200
                                                                                                                                                   1,170

                                    1,000
                                                                                            1,018
                                                                   935
                                     800    848



                                     600



                                     400
                                                  391                    397                        398
                                                                                                                              360
                                                                                                                                                           320
                                     200
                                                                               195                        193                       216                           200
                                                        169
                                                              16                      21                        29                         47                            27
                                       0
                                                  FY 2005                FY 2006                    FY 2007                   FY 2008                      FY 2009

Source: TIGTA analysis of Collection Report 5000-2. CSCO = Compliance Services Collection
Operations.

                                            Figure 20: Number of Liens Filed by the CFf and ACS

                                                                                CFf                             ACS                             Total
                                    1,000
                                                                                                                                                                        966
                                      900


                                      800                                                                                           768

                                                                                                          684
                                      700
                                                                               630
         Thousands




                                      600
                                                        523
                                                                                                                                                                        492
                                      500                                                                                                                    474
                                                                                                                               430
                                                                                                     407
                                      400
                                                                         349                                                              338

                                      300         281                            281                          276
                                                          242

                                      200
                                                   FY 2005                FY 2006                     FY 2007                   FY 2008                          FY 2009

Source: TIGTA analysis of Collection Report 5000-23.




                                                                                                                                                                              Page 34
                                                      Trends in Compliance Activities Through Fiscal
                                                                       Year 2009



                                          Figure 21: Number of Levies Issued by the CFf and ACS

                                                                       CFf             ACS

                                4,000


                                3,500
 Number of Levies (Thousands)




                                3,000


                                2,500


                                2,000                         3,497            3,447
                                                                                                        3,092

                                1,500         2,535                                           2,257


                                1,000


                                 500

                                                               246             310             374      386
                                               209
                                      0
                                             FY 2005         FY 2006         FY 2007         FY 2008   FY 2009

 Source: TIGTA analysis of Collection Report 5000-23.



                                                          Figure 22: Number of Seizures

                                700
                                                                              676
                                600
                                                                                              610
                                                             590                                        581

                                500
                                             512


                                400


                                300


                                200


                                100


                                  0
                                            FY 2005         FY 2006          FY 2007         FY 2008   FY 2009

Source: IRS Data Book.




                                                                                                                 Page 35
                         Trends in Compliance Activities Through Fiscal
                                          Year 2009



    Figure 23: Number of Examination Function Staff Conducting
        Examinations of Tax Returns at the End of Each Year

                                    Revenue Agent             Tax Compliance Officer

12,000

                                                                                               11,238
10,000                         10,513
                                                    10,121                10,080
             9,682

 8,000



 6,000



 4,000



 2,000

                                         1,145                1,060                    1,110            1,267
                      981
    0
               FY 2005              FY 2006            FY 2007                FY 2008             FY 2009

Source: TIGTA analysis of Examination Table 37.


                     Figure 24: Percentage Change From FY 2005 of
                          All Tax Returns Filed and Examined

 25%



                                                                                                  20.3%     Returns
 20%                                                18.2%                                                   Examined
                                                                              17.4%



 15%




 10%
                             7.2%

                                                                               5.0%                5.4%     Returns
  5%                                                                                                        Filed
                                                     2.9%
                             1.5%


  0%
   FY 2005                  FY 2006                 FY 2007                  FY 2008                FY 2009

Source: TIGTA analysis of IRS Data Book.




                                                                                                                       Page 36
                                 Trends in Compliance Activities Through Fiscal
                                                  Year 2009



                  Figure 25: Revenue Agent Results on U.S. Individual Income Tax
                      Returns (Form 1040), Percentage Change From FY 2005 8
                  10%


                  0%

                                                                                           Dollars per Hour
                 -10%


                 -20%

                                                                                           Hours per Return
                 -30%
                                                                                           Dollars per Return


                 -40%


                 -50%
                    FY 2005        FY 2006         FY 2007          FY 2008         FY 2009

                Source: TIGTA analysis of Examination Table 37.


               Figure 26: Revenue Agent Results on Corporate Income Tax Returns,
                               Percentage Change From FY 2005

                 60%




                 40%




                 20%
                                                                                      Dollars per Return
                                                                                      Dollars per Hour
                                                                                      Hours per Return
                  0%




                -20%
                   FY 2005        FY 2006         FY 2007         FY 2008        FY 2009

                Source: TIGTA analysis of Examination Table 37.




8
    Figures 25 through 29 do not include results from Coordinated Industry Cases or Training Returns.
                                                                                                                Page 37
               Trends in Compliance Activities Through Fiscal
                                Year 2009



 Figure 27: Revenue Agent Results on Other Types of Tax Returns,
                Percentage Change From FY 2005

50%

                                                                       Dollars per Hour


25%


                                                                       Dollars per Return
 0%




                                                                       Hours per Return
-25%




-50%
   FY 2005       FY 2006        FY 2007            FY 2008    FY 2009


Source: TIGTA analysis of Examination Table 37.


       Figure 28: Tax Compliance Officer Results on Forms 1040,
                   Percentage Change From FY 2005

80%

                                                                  Dollars per Hour

60%


                                                                  Dollars per Return
40%



20%



 0%


                                                                  Hours per Return
-20%
   FY 2005      FY 2006        FY 2007            FY 2008    FY 2009

Source: TIGTA analysis of Examination Table 37.




                                                                                            Page 38
                                                Trends in Compliance Activities Through Fiscal
                                                                 Year 2009



                                     Figure 29: Revenue Agent and Tax Compliance Officer
                                      No-Change Rates for Various Types of Tax Returns 9

                       40%


                       35%

                                                                                                                     Revenue Agent -
                       30%                                                                                              Corporate

                       25%

                                                                                                                     Revenue Agent -
                       20%
                                                                                                                         Other

                       15%
                                                                                                                     Revenue Agent -
                       10%                                                                                              Individual

                                                                                                                     Tax Compliance
                            5%                                                                                      Officer - Individual


                            0%
                             FY 2005             FY 2006               FY 2007               FY 2008             FY 2009

                Source: TIGTA analysis of Examination Table 37.


                                          Figure 30: Number of Forms 1040 Examined
                                           Face-to-Face or Through Correspondence

                                                                    Face-to-Face             Correspondence


                            1,600


                            1,400
                                                                                                                            1,161
                                                                                    1,136                1,139

                            1,200                           1,056
                                        1,008
                Thousands




                            1,000


                             800


                             600


                             400


                             200                                                    249                  253                 265
                                                            228
                                        191

                                 0
                                       FY 2005             FY 2006                 FY 2007             FY 2008             FY 2009

                Source: Analysis of Examination Closed Case Database.



9
    The IRS implemented updated Discriminant Index Function formulas for individuals during FY 2007.
                                                                                                                                           Page 39
                            Trends in Compliance Activities Through Fiscal
                                             Year 2009



 Figure 31: Numbers and Percentages of Individual and Business Tax Returns Examined

                                           FY 2005     FY 2006     FY 2007     FY 2008     FY 2009


 Individual Returns
   Individuals (Forms 1040)                1,199,035   1,283,950   1,384,563   1,391,581   1,425,888
      Coverage Rate                           0.92%       0.97%       1.03%       1.01%       1.03%


 Business Returns
   Corporations < $10 Million                17,858      17,849      20,020      20,580      18,298
      Coverage Rate                           0.79%       0.80%       0.92%       0.95%       0.85%

   Corporations $10 Million and              10,829      10,578       9,644       9,406       9,536
   Greater
      Coverage Rate                          20.02%      18.60%      16.81%      15.26%      14.55%

   S Corporations (Forms 1120S)              10,417      13,970      17,657      16,634      17,455
      Coverage Rate                           0.30%       0.38%       0.45%       0.40%       0.40%

   Partnerships                               8,489       9,752      12,195      13,203      12,855
      Coverage Rate                           0.33%       0.36%       0.42%       0.42%       0.38%

   Fiduciaries                                6,591       3,669       4,544       4,582       5,259
      Coverage Rate                           0.18%       0.10%       0.12%       0.12%       0.17%

   Employment                                33,748      41,646      56,738      60,346      64,021
      Coverage Rate                           0.11%       0.13%       0.18%       0.20%       0.21%

   Excise                                    16,563      16,678      36,018      16,134      17,267
      Coverage Rate                           1.98%       1.99%       4.02%       1.80%       1.85%

   Estates                                    6,081       5,299       4,616       3,852       4,468
      Coverage Rate                           8.20%       9.66%       7.70%       8.14%       9.26%

   Gift                                       2,125       2,051       1,490       1,071       1,569
      Coverage Rate                           0.81%       0.77%       0.56%       0.42%       0.61%

Source: TIGTA analysis of IRS Data Book.




                                                                                             Page 40
                                            Trends in Compliance Activities Through Fiscal
                                                             Year 2009



                                         Figure 32: Percentage Change From FY 2005 of
                                                 Forms 1040 Filed and Examined
20%
                                                                                                                          18.9%   Returns
                                                                                                                                  Examined

                                                                                                       16.1%
                                                                                15.5%

15%




10%

                                                    7.1%
                                                                                                                           6.4%   Returns
                                                                                                         5.6%
                                                                                                                                  Filed
5%
                                                                                3.0%

                                                    1.3%


0%    0.0%
 FY 2005                                           FY 2006                     FY 2007                FY 2008                FY 2009

Source: TIGTA analysis of IRS Data Book.



                                    Figure 33: Number of Forms 1040 Filed and Examined

                                                                      Returns Examined      Returns Filed

                                 1,600                                                                                        160,000
                                                                                                137,850         138,950
                                                             132,276             134,543
                                 1,500   130,577                                                                              140,000
  Returns Examined (Thousands)




                                                                                                                                            Returns Filed (Thousands)
                                 1,400                                                                                        120,000


                                 1,300                                                                                        100,000


                                 1,200                                                                                        80,000


                                 1,100                                                                           1,426        60,000
                                                                                   1,385         1,392
                                                              1,284
                                 1,000    1,199                                                                               40,000


                                  900                                                                                         20,000


                                  800                                                                                         0
                                         FY 2005             FY 2006              FY 2007       FY 2008         FY 2009

Source: TIGTA analysis of IRS Data Book.




                                                                                                                                                                        Page 41
                             Trends in Compliance Activities Through Fiscal
                                              Year 2009



              Figure 34: Percentage Change From FY 2005 of Corporate Income
                             Tax Returns Filed and Examined 10

             10%

              8%

              6%

              4%

              2%

              0%

              -2%
                                                                                 Returns Examined
              -4%                                                                Returns Filed
              -6%

              -8%

             -10%
                FY 2005       FY 2006         FY 2007        FY 2008         FY 2009

             Source: TIGTA analysis of IRS Data Book.


                  Figure 35: Percentage of Corporate Income Tax Returns
                Examined – Corporations With Assets of Less Than $10 Million
             4.0%
                                                                                 Asset Values
             3.5%

             3.0%
                                                                                  $5M < $10M
             2.5%

             2.0%
                                                                                  $1M < $5M
             1.5%
                                                                                  $250,000 < $1M

             1.0%
                                                                                  Under $250,000
             0.5%
                                                                                  No Balance Sheet
             0.0%
                FY 2005       FY 2006         FY 2007        FY 2008         FY 2009

             Source: TIGTA analysis of IRS Data Book.




10
 Excludes U.S. Income Tax Return for an S Corporation (Form 1120S) and U.S. Income Tax Return of a Foreign
Corporation (Form 1120-F).
                                                                                                     Page 42
                                              Trends in Compliance Activities Through Fiscal
                                                               Year 2009



                        Figure 36: Percentage of Corporate Income Tax Returns
                     Examined – Corporations With Assets of $10 Million and Greater
50%
                                                                                                           Asset Values
45%

40%

35%

30%

25%                                                                                                        $250M & Greater

20%

15%                                                                                                        $100M < $250M

10%                                                                                                        $10M < $100M

     5%

     0%
      FY 2005                                 FY 2006               FY 2007           FY 2008       FY 2009

Source: TIGTA analysis of IRS Data Book.


                                      Figure 37: Number of Tax Returns Filed and
                               Examined - Corporations With Assets of Less Than $10 Million

                                                               Returns Examined     Returns Filed
                               25                                                                                  2,500
                                      2,249             2,230              2,171          2,166      2,146
Returns Examined (Thousands)




                               20                                                                                  2,000   Returns Filed (Thousands)


                               15                                                                                  1,500



                               10                                             20            21                     1,000
                                      18                  18                                          18


                                5                                                                                  500



                                0                                                                                  0
                                    FY 2005             FY 2006           FY 2007        FY 2008    FY 2009

Source: TIGTA analysis of IRS Data Book.




                                                                                                                                                       Page 43
                                                            Trends in Compliance Activities Through Fiscal
                                                                             Year 2009



                                           Figure 38: Number of Tax Returns Filed and
                                   Examined - Corporations With Assets of $10 Million and Greater

                                                                              Returns Examined       Returns Filed

                                                20                                                                                80

                                                18                                                                     66
                 Returns Examined (Thousands)




                                                                                                                                  70
                                                                                                            62




                                                                                                                                       Returns Filed (Thousands)
                                                16                       57                  57
                                                       54                                                                         60
                                                14
                                                                                                                                  50
                                                12

                                                10                                                                                40

                                                8
                                                                                                                                  30
                                                6
                                                       11                11                                                       20
                                                                                             10              9         10
                                                4
                                                                                                                                  10
                                                2

                                                0                                                                                 0
                                                     FY 2005         FY 2006               FY 2007       FY 2008     FY 2009

                Source: TIGTA analysis of IRS Data Book.


                                                      Figure 39: Percentage Change From FY 2005 of
                                                            Forms 1120S Filed and Examined 11

                80%

                70%                                                                                                              Returns
                                                                                                                                Examined
                60%

                50%

                40%

                30%
                                                                                                                                 Returns
                                                                                                                                  Filed
                20%

                10%

                    0%
                     FY 2005                                   FY 2006                 FY 2007             FY 2008          FY 2009

                Source: TIGTA analysis of IRS Data Book.




11
     The increase in returns examined coincided with a compliance study of Forms 1120S.
                                                                                                                                                                   Page 44
                                                               Trends in Compliance Activities Through Fiscal
                                                                                Year 2009



                                                  Figure 40: Number of Forms 1120S Filed and Examined

                                                                              Returns Examined       Returns Filed

                                             50                                                                                 5,000
                                                                                                                     4,391
                                             45                                                          4,156                  4,500
         Returns Examined (Thousands)




                                                                                          3,910




                                                                                                                                            Returns Filed (Thousands)
                                             40                       3,715                                                     4,000
                                                      3,524
                                             35                                                                                 3,500

                                             30                                                                                 3,000

                                             25                                                                                 2,500

                                             20                                                                                 2,000

                                             15                                                                                 1,500

                                             10                                                                                 1,000
                                                                                               18          17          17
                                                                       14
                                              5           10                                                                    500

                                              0                                                                                 0
                                                     FY 2005        FY 2006              FY 2007        FY 2008      FY 2009


 Source: IRS Data Book.


Figure 41: Number of Tax Returns Filed and Examined - Partnerships

                                                                            Returns Examined        Returns Filed

                                        20                                                                                          4,000

                                                                                                                       3,349
                                        18                                                                                          3,500
                                                                                                          3,147
 Returns Examined (Thousands)




                                                                                          2,935

                                                                                                                                            Returns Filed (Thousands)
                                        15                          2,720                                                           3,000
                                                    2,546
                                        13                                                                                          2,500


                                        10                                                                                          2,000


                                        8                                                                                           1,500
                                                                                                           13           13
                                                                                           12
                                        5                             10                                                            1,000
                                                      8

                                        3                                                                                           500


                                        0                                                                                           0
                                                    FY 2005         FY 2006              FY 2007        FY 2008       FY 2009


 Source: IRS Data Book.




                                                                                                                                                                        Page 45
                                                 Trends in Compliance Activities Through Fiscal
                                                                  Year 2009



Figure 42: Number of Tax Returns Filed and Examined - Fiduciaries

                                                                 Returns Examined      Returns Filed

                                10,000                                                                                  5,000


                                                                              3,751




                                                                                                                                      Returns Filed (Thousands)
                                 8,000       3,722          3,699                         3,730                         4,000
 Returns Examined




                                                                                                           3,111
                                 6,000                                                                                  3,000



                                 4,000                                                                                  2,000
                                                6,591
                                                                                                           5,259
                                                                               4,544      4,582
                                 2,000                      3,669                                                       1,000



                                     0                                                                                  0
                                            FY 2005        FY 2006           FY 2007     FY 2008          FY 2009


Source: IRS Data Book.


                                            Figure 43: Number of Tax Returns Filed and
                                                    Examined - Employment Tax

                                                        Returns Examined                Returns Filed
                                80                                                                                  35,000
                                         30,494         31,058             30,804      30,717           30,503
                                70
 Returns Examined (Thousands)




                                                                                                                    30,000      Returns Filed (Thousands)
                                60
                                                                                                                    25,000

                                50
                                                                                                                    20,000
                                40
                                                                                                                    15,000
                                30                                                       60               64
                                                                             57
                                                                                                                    10,000
                                20                        42
                                           34
                                10                                                                                  5,000


                                 0                                                                                  0
                                         FY 2005        FY 2006           FY 2007      FY 2008          FY 2009

Source: IRS Data Book.




                                                                                                                                                                  Page 46
                                                     Trends in Compliance Activities Through Fiscal
                                                                      Year 2009



Figure 44: Number of Tax Returns Filed and Examined - Excise Tax

                                                                    Returns Examined              Returns Filed

                               50                                                                                                    1,000
                                                                                    896                895                     935
                                             835              839
Returns Examined (Thousands)




                                                                                                                                              Returns Filed (Thousands)
                               40                                                                                                    800



                               30                                                                                                    600



                               20                                                                                                    400
                                                                                     36


                               10                                                                                                    200
                                              17               17                                       16                17



                                0                                                                                                    0
                                            FY 2005          FY 2006               FY 2007           FY 2008            FY 2009


Source: IRS Data Book.


                      Figure 45: Number of Tax Returns Filed and Examined - Estates

                                                                            Returns Examined            Returns Filed

                                16,000                                                                                                   80
                                                       74
                                14,000                                                                                                   70
                                                                                           60
                                12,000                               55                                                                  60   Returns Filed (Thousands)
           Returns Examined




                                                                                                              47               48
                                10,000                                                                                                   50

                                    8,000                                                                                                40

                                    6,000                                                                                                30

                                    4,000                                                                                                20
                                                    6,081
                                                                    5,299                 4,616
                                    2,000                                                                    3,852          4,468        10

                                       0                                                                                                 0
                                                   FY 2005       FY 2006               FY 2007           FY 2008          FY 2009

Source: IRS Data Book.




                                                                                                                                                                          Page 47
                                                                    Trends in Compliance Activities Through Fiscal
                                                                                     Year 2009



                      Figure 46: Number of Tax Returns Filed and Examined - Gift Tax

                                                                                   Returns Examined                         Returns Filed

                                         3,500                                                                                                                                350


                                         3,000                                                                                                                                300
                                                               262               265                  264                                                 257




                                                                                                                                                                                     Returns Filed (Thousands)
                                                                                                                                 255
                    Returns Examined




                                         2,500                                                                                                                                250


                                         2,000                                                                                                                                200


                                         1,500                                                                                                                                150


                                         1,000                2,125              2,051                                                                                        100
                                                                                                     1,490                                                1,569
                                           500                                                                                  1,071                                         50


                                               0                                                                                                                              0
                                                            FY 2005            FY 2006              FY 2007                    FY 2008                   FY 2009


              Source: IRS Data Book.


                 Figure 47: Number of Other Compliance Contacts on Forms 1040 12
                                                                                     Math Error           Underreporter           ASFR

                                14,000



                                12,000
                                                                                                                                                          12,050


                                10,000
              Thousands




                                       8,000



                                       6,000



                                       4,000

                                                                                                                                        3,530                       3,621
                                                                                                           3,403
                                                   3,164                   3,159 3,209            2,966
                                                            2,837                                                              2,801
                                       2,000

                                                                                          1,253                     1,356                        1,300                       1,385
                                                                     821
                                          0
                                                           FY 2005              FY 2006                   FY 2007                      FY 2008                     FY 2009

              Source: IRS Data Book. ASFR = Automated Substitute for Return system.



12
  The spike in FY 2009 is at least partially due to eligible taxpayers whose circumstances changed and who may
have claimed a rebate recovery credit to receive some or the entire unpaid portion of an economic stimulus payment.
The FY 2009 data include cases where the rebate recovery credit was not claimed on tax returns, but the IRS
computed the credit for eligible taxpayers. For FY 2009, 6,233,213 of these cases related to Tax Year 2008 returns
and 240 related to Tax Year 2007 returns.
                                                                                                                                                                                                                 Page 48
                             Trends in Compliance Activities Through Fiscal
                                              Year 2009



             Figure 48: Other Compliance Contacts – Forms 1040 Coverage Rate

                        FY 2005           FY 2006          FY 2007           FY 2008      FY 2009

  Math Error              3,163,794        3,159,077         2,965,745        2,801,427   12,049,948

   Coverage Rate              2.38%            2.36%             2.21%            2.02%       7.81%


  Underreporter           2,837,149        3,209,000         3,403,000        3,530,000    3,621,000

   Coverage Rate              2.16%            2.42%             2.54%            2.54%       2.35%


  ASFR                     820,845         1,253,000         1,356,000        1,300,000    1,385,000

   Coverage Rate              0.63%            0.94%             1.01%            0.94%       0.90%

Source: TIGTA analysis of IRS Data Book. ASFR = Automated Substitute for Return system.




                                                                                              Page 49
                        Trends in Compliance Activities Through Fiscal
                                         Year 2009



                                                                           Appendix VI

         Prior Treasury Inspector General for Tax
        Administration Compliance Trends Reports

Management Advisory Report: Evaluation of Reduction in the Internal Revenue Service’s
Compliance Activities (Reference Number 2000-30-075, dated May 12, 2000).
Management Advisory Report: Tax Return Filing and Examination Statistics (Reference
Number 2001-30-175, dated September 21, 2001).
Management Advisory Report: Analysis of Trends in Compliance Activities Through Fiscal
Year 2001 (Reference Number 2002-30-184, dated September 30, 2002).
Trends in Compliance Activities Through Fiscal Year 2002 (Reference Number 2003-30-078,
dated March 31, 2003).
Trends in Compliance Activities Through Fiscal Year 2003 (Reference Number 2004-30-083,
dated April 23, 2004).
Trends in Compliance Activities Through Fiscal Year 2004 (Reference Number 2005-30-055,
dated March 30, 2005).
Trends in Compliance Activities Through Fiscal Year 2005 (Reference Number 2006-30-055,
dated March 27, 2006).
Trends in Compliance Activities Through Fiscal Year 2006 (Reference Number 2007-30-056,
dated March 27, 2007).
Trends in Compliance Activities Through Fiscal Year 2007 (Reference Number 2008-30-095,
dated April 18, 2008).
Trends in Compliance Activities Through Fiscal Year 2008 (Reference Number 2009-30-082,
dated June 10, 2009).




                                                                                      Page 50
